                   February 29, 2000

                   JON M. STEELE
                   VICE PRESIDENT, NORTHEAST AREA OPERATIONS

                   PAUL W. LANZI
                   MANAGER, MIDDLESEX CENTRAL DISTRICT

                   SUBJECT:      Allegation Concerning the Middlesex Central
                                 District Use of Injury Claim Form CA-1
                                 (Report Number HC-MA-00-001)

                   This report presents the results of our review of the
                   Middlesex Central District’s process for requesting
                   employees’ medical information from health care providers
                   (Project Number 00RR011HC000). We initiated this review
                   based on a complaint submitted to the Office of Inspector
                   General Hotline. The complainant alleged that the
                   Middlesex Central District’s Injury Compensation Control
                   Office (Middlesex Control Office) staff was misusing injury
                   claim Form CA-1, Federal Employee’s Notice of Traumatic
                   Injury and Claim for Continuation of Pay/Compensation, to
                   request employees' medical information from health care
                   providers.

Results in Brief   We determined that from mid-1994 until May 13, 1999, the
                   Middlesex Control Office staff inappropriately used the injury
                   claim Form CA-1 to request and obtain employees’ medical
                   information from health care providers. In addition, this
                   practice did not comply with the Department of Labor, Office
                   of Workers’ Compensation Programs (OWCP) and Postal
                   Service policies. The inappropriate use of injury claim Form
                   CA-1 occurred because the Middlesex Control Office staff
                   misinterpreted the authorization statement on injury claim
                   Form CA-1 for the release of medical information to the
                   OWCP, as also being applicable to the Postal Service.




                            Restricted Information
Allegation Concerning the Middlesex Central District’s                                                 HC-MA-00-001
 Use of Injury Claim Form CA-1



                                  Further, the Middlesex Control Office staff was unaware of
                                  the directive issued on March 19, 1999,1 by the OWCP,
                                  advising the Postal Service to cease using injury claim Form
                                  CA-1 as an authorization to request employees’ medical
                                  information. Consequently, the Postal Service violated
                                  injured employees’ privacy and misrepresented the
                                  claimants’ authorization to release medical records to the
                                  OWCP. However, since May 13, 1999, the Postal Service
                                  has complied with OWCP and postal policy by using the
                                  appropriate forms to request employees’ medical
                                  information.

                                  We offered management three suggestions for: ensuring
                                  the inappropriate use of injury claim Form CA-1 is not
                                  prevalent and widespread throughout the Postal Service;
                                  avoiding the misinterpretation of language on OWCP forms;
                                  and ensuring the timely dissemination of Health and
                                  Resource Management instructions to all Northeast Area
                                  district offices.

                                  In response to our discussion with Postal Service
                                  management concerning the issues in this report,
                                  management took immediate action to prevent the
                                  inappropriate use of Form CA-1 by issuing a letter, on
                                  January 11, 2000, to all Postal Service Area Operations
                                  Human Resources personnel instructing them to direct their
                                  appropriate district offices not to use injury claim Form CA-1
                                  as an authorization to request employees’ medical
                                  information. In addition, management indicated agreement
                                  with the other two suggestions and has taken corrective
                                  actions, which are responsive. Management’s comments,
                                  in their entirety, are included in Appendix C.

Background                        The OWCP has sole responsibility for administering the
                                  Federal Employees’ Compensation Act. The Code of
                                  Federal Regulations, Title 20, Part 10, April 1, 1999,
                                  establishes the rules for claiming benefits under the Federal
                                  Employees’ Compensation Act. Specifically, Section 10.100
                                  (a) states that an employee who sustains a work related
                                  traumatic injury must give notice of the injury in writing on
                                  injury claim Form CA-1 and forward this notice to the
                                  employer. In addition, the Postal Service Employee and
         1
        In Appendix A, we included the full text of the March 19, 1999, letter from the director, Division of Federal
Employees’ Compensation.



                                                          2
                                               Restricted Information
Allegation Concerning the Middlesex Central District’s                            HC-MA-00-001
 Use of Injury Claim Form CA-1


                               Labor Relations Manual, Chapter 540, Injury Compensation
                               Program, Subchapter 544.211, states that injury claim
                               Form CA-1 should be used to provide a written report to the
                               employee’s official supervisor when an employee suffers a
                               disabling, job-related, traumatic injury.

                               Furthermore, the Code of Federal Regulations addresses
                               the process and forms employers should use when
                               requesting medical information from the attending physician
                               concerning the duty status of an employee with a disabling
                               work related injury. Section 10.331(b) states that “the
                               employer should use Form CA-17 [Duty Status Report] to
                               obtain interim reports concerning the duty status of an
                               employee with a disabling injury.”

Objective, Scope, and          Our primary objective was to determine the validity of the
Methodology                    complaint concerning the inappropriate use of injury claim
                               Form CA-1 to obtain employees’ medical information from
                               healthcare providers. In addition, we evaluated whether the
                               Middlesex Control Office’s use of injury claim Form CA-1 for
                               requesting employees’ medical information was in
                               compliance with OWCP and Postal Service policies.

                               To accomplish our objectives, we interviewed Postal
                               Service and OWCP officials, and the complainant regarding
                               the allegation. In addition, we judgmentally selected
                               34 injury claims processed during the period March 1999
                               through September 1999 from the Postal Service Human
                               Resources Information System. We reviewed those
                               34 injury claim files to determine whether the hotline
                               allegation examples were isolated instances, and whether
                               the Middlesex Control Office staff discontinued using injury
                               claim Form CA-1 as an authorization to request employees’
                               medical information.

                               This review was conducted from October 29, 1999, through
                               February 14, 2000, in accordance with the President’s
                               Council on Integrity and Efficiency, Quality Standards for
                               Inspections. We discussed our conclusions and
                               observations with appropriate management officials and
                               included their comments, where appropriate.




                                                     3
                                           Restricted Information
Allegation Concerning the Middlesex Central District’s                               HC-MA-00-001
 Use of Injury Claim Form CA-1



Use of Injury Claim            Our review determined that since mid-1994 the Middlesex
Form CA-1 as an                Control Office staff had inappropriately used injury claim
Authorization for              Form CA-1 as an authorization to request employees’
Requesting the                 medical information from health care providers. In addition,
Release of Medical             this practice did not comply with the OWCP and Postal
Information                    Service policies. This practice occurred because the
                               Middlesex Control Office staff misinterpreted the
                               authorization statement on injury claim Form CA-1 for the
                               release of medical information to the OWCP, as also being
                               applicable to the Postal Service. In addition, the Middlesex
                               Control Office staff was unaware of the directive issued on
                               March 19, 1999, by the director, Division of Federal
                               Employees’ Compensation advising the Postal Service to
                               cease using injury claim Form CA-1 as an authorization to
                               request employees’ medical information. Consequently, the
                               Postal Service violated injured employees’ privacy and
                               misrepresented the claimants’ authorization to release
                               medical records to the OWCP. The Middlesex Control
                               Office staff continued using injury claim Form CA-1 as an
                               authorization for requesting employees’ medical information
                               until May 13, 1999.

Interpretation of              In September 1993, the OWCP revised injury claim
Authorization                  Form CA-1 to include an authorization statement for the
Statement                      release of employees’ medical information. The
                               authorization statement for the release of employees’
                               medical information to the OWCP was inserted in the
                               employee signature section of the injury claim forms and
                               stipulates the following.

                                        I hereby authorize any physician or hospital
                                        (or any other person, institution, corporation,
                                        or government agency) to furnish any desired
                                        information to the U.S. Department of Labor,
                                        Office of Workers’ Compensation Programs
                                        (or its official representative). This
                                        authorization also permits any official
                                        representative of the Office to examine and to
                                        copy any records concerning me.

                               Subsequently, the Middlesex Control Office staff
                               misinterpreted the phrase, “or its official
                               representative,” in the authorization statement to
                               include the Postal Service. As a result, from mid-1994



                                                     4
                                           Restricted Information
Allegation Concerning the Middlesex Central District’s                                                 HC-MA-00-001
 Use of Injury Claim Form CA-1


                                  until May 13, 1999, the staff routinely used the
                                  authorization statement on injury claim Form CA-1 to
                                  request the release of employees’ medical information.
                                  Specifically, the Middlesex Control Office staff prepared
                                  a form letter,2 attached a copy of injury claim Form
                                  CA-1 signed by the employee and submitted the
                                  request to the employee’s health care provider to
                                  release the specified medical information to the Postal
                                  Service. We realize that on occasion OWCP forms
                                  may contain ambiguous language, which can be
                                  misinterpreted by Postal Service injury compensation
                                  program personnel. In the future, to help avoid
                                  misinterpretation of language on OWCP forms, the
                                  Middlesex Control Office staff should obtain clarification
                                  from their respective OWCP district office.

Awareness of Directive            The Middlesex Control Office staff's practice of using injury
by Middlesex Control              claim Form CA-1 for requesting employees’ medical
Office Staff                      information did not become an issue until March 1999, when
                                  the complainant informed the OWCP, District Office 1-
                                  Boston. As a result, on March 19, 1999, the director,
                                  Division of Federal Employees’ Compensation, issued a
                                  directive to the Postal Service manager, Health and
                                  Resource Management3 instructing the Postal Service injury
                                  compensation program personnel to cease using injury
                                  claim Form CA-1 as an authorization to request employees’
                                  medical information. However, the Middlesex Control Office
                                  staff was unaware of the directive.

                                  On April 16, 1999, the Postal Service Headquarters, Health
                                  and Resource Management office personnel faxed a copy
                                  of the March 1999 directive to the Northeast Area
                                  Operations, acting human resources analyst. According to
                                  Health and Resource Management office personnel, written
                                  instructions were also provided, directing the acting human
                                  resources analyst to advise the Middlesex Control Office
                                  staff to cease using injury claim Form CA-1 to request
                                  employees’ medical information. In addition, because of the
                                  sensitive nature of the issue, the Health and Resource
                                  Management office personnel also contacted the Northeast
                                  Area Operations, detailed human resources analyst and

         2
           The form letter stated that the attached injury claim Form CA-1 signed by the employee authorized the
Postal Service to request copies for any and all examinations and treatments, including surgical notes, provided for
treatment relating to an injury.
         3
           Formerly known as Safety and Workplace Assistance office.



                                                          5
                                               Restricted Information
Allegation Concerning the Middlesex Central District’s                              HC-MA-00-001
 Use of Injury Claim Form CA-1


                               instructed the analyst to monitor the resolution of this issue.
                               Despite these actions, the Northeast Area Operations,
                               Human Resources office personnel did not forward a copy
                               of the March 1999 directive to the Middlesex Control Office
                               staff.

                               Because the Northeast Area Operations, Human Resources
                               office personnel did not forward the March 19, 1999,
                               directive, the acting manager, Middlesex Control Office was
                               unaware of the directive until May 13, 1999, when the acting
                               manager received an inquiry from the Middlesex Central
                               District’s Labor Relations office. As a result, the acting
                               manager issued an e-mail on May 13, 1999, to the
                               Middlesex Control Office staff instructing them to cease
                               using injury claim Form CA-1 as an authorization for
                               requesting the release of employees’ medical information to
                               the Postal Service.

Current Practice to            Our review of 34 injury claim files revealed that the
Request Employees’             Middlesex Control Office staff has not used injury claim
Medical Information            Form CA-1 to request employees’ medical information since
                               the acting manager’s, May 13, 1999, direction to cease the
                               practice. We found that the Middlesex Control Office staff is
                               currently using the OWCP Form CA-17, “Duty Status
                               Report,” or Postal Service Form 2488, “Authorization for
                               Medical Report,” to request employees’ medical information.
                               We determined that the use of these forms to request
                               employees’ medical information is in compliance with the
                               OWCP and Postal Service policies.

Management Action              On December 23, 1999, we verbally reported the results of
                               our review to Postal Service Headquarters, Health and
                               Resource Management office personnel. We emphasized
                               that, while the Middlesex Control Office staff was no longer
                               inappropriately using the injury claim Form CA-1, Postal
                               Service officials should take a proactive step to ensure that
                               this practice was not occurring at other Postal Service
                               locations. We suggested that the manager, Health and
                               Resource Management issue a policy letter instructing all
                               injury compensation program personnel not to use injury
                               claim Form CA-1 as an authorization for the release of
                               employees’ medical information. Accordingly, the manager,




                                                     6
                                           Restricted Information
Allegation Concerning the Middlesex Central District’s                              HC-MA-00-001
 Use of Injury Claim Form CA-1



                               Health and Resource Management issued a policy letter on
                               January 11, 2000, implementing our suggestion (see
                               Appendix B). As a result, we did not include this suggestion
                               in this report.

Suggestion                     We suggest the manager, Middlesex Central District:

                               1. Emphasize to the staff the importance of requesting
                                  assistance from the OWCP District Office 1-Boston, as
                                  needed, to avoid misunderstanding language contained
                                  on OWCP forms.

Management’s                   Management agreed with the observation and suggestion
Comments                       and has implemented the suggestion by instructing their
                               staff to seek clarification from OWCP on its regulations
                               when questions arise.

Evaluation of                  Management’s comments were responsive, and their
Management’s                   actions taken should correct the condition identified in this
Comments                       report.

Suggestion                     We suggest that the vice president, Northeast Area
                               Operations, direct:

                               2. The manager, Human Resources to ensure that the
                                  January 11, 2000, letter and any subsequent instructions
                                  received from Postal Service Headquarters, Health and
                                  Resource Management office are disseminated timely to
                                  all Northeast Area district offices.

Management’s                   Management indicated agreement with the observation and
Comments                       suggestion and stated that the policy letter issued by the
                               Postal Service Headquarters was immediately disseminated
                               to all Northeast Area district offices. They also stated that
                               the instruction will be discussed at the next Injury
                               Compensation Managers Meeting. Further, management
                               stated that all policy statements or instructions issued from
                               Postal Service Headquarters will continue to be timely
                               disseminated.




                                                     7
                                           Restricted Information
Allegation Concerning the Middlesex Central District’s                              HC-MA-00-001
 Use of Injury Claim Form CA-1



Evaluation of                  Management’s comments were responsive, and their
Management’s                   actions taken should correct the conditions identified in this
Comments                       report.

                               We appreciated the cooperation and courtesies provided by
                               your staff during the review. If you have any questions,
                               please contact me at (703) 248-2300.


                               //Signed//
                               Sylvia L. Owens
                               Assistant Inspector General
                                 for Revenue/Cost Containment

                               cc: Yvonne D. Maguire
                                   Larry B. Anderson
                                   Kathleen A. Dial
                                   David J. Couture
                                   John R. Gunnels




                                                     8
                                           Restricted Information
Allegation Concerning the Middlesex Central District’s              HC-MA-00-001
 Use of Injury Claim Form CA-1


                                       APPENDIX A.




                                                     9
                                           Restricted Information
Allegation Concerning the Middlesex Central District’s              HC-MA-00-001
 Use of Injury Claim Form CA-1




                                                     10
                                           Restricted Information
Allegation Concerning the Middlesex Central District’s              HC-MA-00-001
 Use of Injury Claim Form CA-1


                                       APPENDIX B.




                                                     11
                                           Restricted Information
Allegation Concerning the Middlesex Central District’s              HC-MA-00-001
 Use of Injury Claim Form CA-1


                                           APPENDIX C.




                                                     12
                                           Restricted Information
Allegation Concerning the Middlesex Central District’s              HC-MA-00-001
 Use of Injury Claim Form CA-1




                                                     13
                                           Restricted Information
Allegation Concerning the Middlesex Central District’s              HC-MA-00-001
 Use of Injury Claim Form CA-1



Major Contributors to          Riccardo R. Buglisi
The Report:                    Ronald D. Blake
                               Cheryl C. Henderson
                               Katherine K. Johnson
                               Richard S. Lewis
                               Sheila Zimmerman




                                                     14
                                           Restricted Information
